December 14, 1999



George Grob

Deputy Inspector General for Evaluation and Inspections


24-Month Performance Data for the HIPAA-Funded Project Grantees (OEI-02-97-00524)


Edwin Walker, Director

Office of Program Operations and Development

Administration on Aging



At the request of the Administration on Aging (AoA), we have continued to collect performance

data for the 18 HIPAA-Funded Project grantees. The attachment presents cumulative performance

data for the first 24 months on the Projects. 


A comparison to data collected from the previous reporting period reveals the following: 


C      total number of trainers increased from 8,511 to 9,781. 

C      total number of beneficiaries educated more than doubled from 10,727 to 25,556.

C      total complaints received increased by half from 6,318 to 9,852.

C      total Medicare funds identified for recoupment was $1,400. 


Please note that the data contained in the attachment are self reported, and that we have not verified

their accuracy. However, for reports of dollar savings, we do request documentation. Both New

York and Arizona claimed savings that have not been included in this report pending documentation.


Further, data for New York was presented in our earlier report 24-Month Performance Data for

Senior Medicare Patrol Projects (OEI-02-97-00523). New York receives funding from both

programs but reports only one set of performance data.


We will continue to monitor these projects and provide you with 30-month performance data. If

you have any questions please call me at 202-619-0480 or have you staff call Jack Molnar at 212-

264-1998.


Attachment 

                                                                                                                                                                                                    Attachment
                                   24-Month Performance Data from the HIPAA-Funded Project Grantees

                                                                                                                                                                                                                    1
                Activity                     AZ        CA     CO       FL       GA       IL       LA       MA       MO       NJ       (NY)       OH       OR       PA       TN       TX    VA        WA     TOTAL

A. Trainers

# of training sessions conducted for              60     29       17    15       14       19       13        24       32          0     301       11      590           7        3    72        1      80      987
network agency staff, volunteers, and
others.

# of network agency staff, including            900 1,003         20   264      630      655      198        19     1,348         1   5,707      810      290      275       95 1,069        80       421    8,078
volunteers, trained

# of other staff and volunteers trained           98    119        0    40           0        0   319           0        0        0   1,609           8   300           0    20      799        0     DK     1,703

Total trained                                   998 1,122         20   304      630      655      517        19     1,348         1   7,316      818      590      275      115 1,868        80       421    9,781

B. Public information
# of media events conducted                       10     47        2    85           7    16           4        9        0        0      81           1        9        6        3   112        4     119      434

# of forums and other public                      90     45       27    64           2        3        2        8     11       13       404       40           2        6    74       64     78       482    1,011
information presentations conducted

# of persons attending these forums and       2,576     750 133,00 5,722         65       32      115      1,220    5,200    1,573 226,26 6,420           184      278 3,706 2,054 10,384 37,31 210,59
other public information presentations                           0                                                                      2                                                     7      6

C. Activities of trainers
# of trainers currently promoting                 96     22       20        8        6    62       31        19       70          1   1,060       30      240      275       63       67     80       DK     1,090
awareness and reporting of health care
fraud and abuse

# of education and training sessions              63     20     311         2        2        5        9     52          0        0          0    DK      DK            6        3    DK        0     DK       473
conducted by trainers for network
agency or for other staff and volunteers

# of network agency and other staff and         153     485     460     11       23      380      181      2,205         0        0          0    DK      DK       576      285       DK        0     DK     4,759
volunteers attending these sessions

# of sessions conducted by trainers for           84    625       32    65           5    62           9    105          9        0   1,044       DK      DK        46           0    12     57       DK     1,111
beneficiaries, family members, care
givers, and others

# of beneficiaries, family members, care      2,251 1,250       920 5,723       141 1,457 1,357            2,100     567          0 12,758        DK      DK 1,975               0   283   7,532      DK 25,556
givers, and others attending these
sessions



                        1
                            Total excludes NY which was previously reported as a Senior Medicare Patrol Project.
                                                                                                                                                                                Attachment
                                    24-Month Performance Data from the HIPAA-Funded Project Grantees

                Activity                   AZ       CA     CO       FL    GA    IL       LA       MA      MO    NJ       (NY)       OH       OR       PA   TN       TX    VA     WA       TOTAL


D. Health care fraud and
abuse complaint receipt
and referral activity
# of complaints received attributable to        26 5,799        0   774    14        9        5   2,082    DK        1     129       28           4   DK        0   270   110     730      9,852
the project

# of complaints referred for follow-up          26 4,349        0    12    12        9        5     DK     DK        1      28           1        2   DK        0    75    84      13      4,589

# of complaints that resulted in some           8    609        0   DK    DK    DK       DK         DK     DK        0      27       DK      DK       DK        0    31    DK         3     651
action

Medicare $ identified for recoupment            0    DK         0   DK    DK         0   DK         DK     DK        0   3,008       DK           0   DK        0    DK    DK 1,400        1,400
attributable to the project

Other $ identified for recoupment               0    DK         0   DK    DK         0   DK         DK     DK        0          0    DK           0   DK        0    DK    DK 22,00 22,000
attributable to the project                                                                                                                                                       0
